No. _______________

In the Supreme Court of the United States
_________________________________________
Walter Crayton,
petitioner
v.
Commonwealth of Massachusetts,
respondent
_________________________________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Walter Crayton moves this honorable court for leave to proceed in
forma pauperis. He is to pay fees associated with this litigation or give security
therefor. He believes that they are entitled to relief from a decision of the
Massachusetts Appeals Court and files his Petition for Certiorari seeking that
relief.
Petitioner qualified for the appointment of counsel due to his indigence in
state court pursuant to M.G.L. c. 211D, §§ 2, 5 regarding the matter now before the
Court. He was appointed counsel. See Notice of Assignment of Counsel, attached.
Respectfully submitted this 9th day of April, 2021,
David B. Hirsch,
Attorney for Mr. Crayton
454 South St.
Portsmouth NH 03801
603-431-0991
david.hirsch@comcast.net

~ The Commonwealth of Massachusetts
Committee for Public Counsel Services
44 Bromfield Street, Boston, MA 02108~4909
T EL: (6 17) 482-6212
FAX: (6 17) 988-8493
NANCY T. BENNETT
DEPUTY CHI EF COUNS EL

ANTHONY J . BENEDETTI
CHIEF COUNS EL

PRIVA TE COUNSEL DIVISION

March 28 , 2018

David Hirsch
P.O. Box 900
Portsmouth, NH 03801
RE:

Commonwealth v. Walter Crayton, W 110817
Norfolk Superior Court No(s). 1582CR00084

Dear Attorney Hirsch:
Enclosed is the Notice of Assignment of Counsel form for your post-conviction assignment.
Please file your appearance in the appropriate court immediately and contact the client as soon as
possible . .You must also meet with your client at least once after you have reviewed the transcript.
You should not withdraw from this case without first conferring with Donald Bronstein, Director
of Criminal Appeals, Private Counsel Division. Please forward a copy of the brief to this office upon
filing. Failure to do so will result in nonpayment.
If you wish to pursue a Rule 30 motion for new trial, or any other collateral attack where there is
no automatic right to counsel, you must first obtain approval, by letter or phone, from Donald
Bronstein, Director of Criminal Appeals.

Please review and adhere to all Performance Standards Governing the Representation of Clients
on Criminal Appeals and Post-Conviction Matters, as set forth in CPCS' Assigned Counsel Manual
which can be found at
http://www.publiccounsel.net/private_counsel_manual/private_counsel_manual_index.html.
If you have any questions regarding your assignment, please contact me at the above number.

Sincerely,

~~~~e

NOTICE OF ASSIGNMENT
OF COUNSEL
Date of Assignment
Judge
CPCS
5/14/2019

Assignment Number
COMMONWEALTH OF
MASSACHUSETTS
C8035211-2
JurySession
Court 477
Middlesex Superior Court

Name of Person for whom counsel assigned The court has found the above-named person
Walter Crayton W100151
Indigent
Juv/Adult
Contribution
Docket No.
0981CR01126
Incarceration Status
NCCI/Gardner
Post-Trial Criminal Case Purpose Of Assignment
Direct
Offense / Charge
039

TrialCourt
Middlesex Superior Court

Poss. Child Porno, 2nd Offense

Attorney Assigned
BBO 600915
Name David Hirsch
Address P.O. Box 900
Portsmouth, NH 03801
Phone (603) 501-0364

Authorized Signature:
Dorothy A. Mele
Tuesday, May 28, 2019

